                                                VETERANS’ EMPLOYMENT AND
                                                TRAINING SERVICE

Office of Inspector General—Office of Audit 





                                                THE HOMELESS VETERANS REINTEGRATION
                                                PROGRAM NEEDS TO MAKE IMPROVEMENTS TO
                                                ENSURE HOMELESS VETERANS’ EMPLOYMENT
                                                NEEDS ARE MET




                                                                       Date:   September 30, 2010
                                                              Report Number:     06-10-003-02-001
U.S. Department of Labor
Office of Inspector General                           September 2010
Office of Audit
                                                      THE HOMELESS VETERANS REINTEGRATION
                                                      PROGRAM NEEDS TO MAKE IMPROVEMENTS
BRIEFLY…                                              TO ENSURE HOMELESS VETERANS’
Highlights of Report Number: 06-10-003-02-001 to      EMPLOYMENT NEEDS ARE MET
the Assistant Secretary for Veterans Employment
and Training.                                         WHAT OIG FOUND
                                                      VETS lacked adequate controls to ensure HVRP
                                                      effectively met the employment needs of homeless
WHY READ THE REPORT                                   veterans. Our measurement of overall program
This report discusses the Veterans’ Employment        results revealed that of the 13,777 program
and Training Service (VETS) monitoring of the         enrollments, only 4,302 (31 percent) obtained and
Homeless Veterans Reintegration Program               retained employment for three quarters. Review of
(HVRP). The HVRP was first authorized under           national, regional, and state/local grant operations
Section 738 of the Stewart B. McKinney Homeless       revealed significant breakdowns in VETS’
Assistance Act of July 1987, and amended by           oversight and monitoring of grantees operations
Section 5 of the Homeless Veterans                    and performance.
Comprehensive Assistance Act of 2001.
                                                      In 49 of 60 (82 percent) underperforming grants,
For program year                                      VETS’ controls did not ensure the grantees were
2008 — July 1, 2008, through June 30, 2009 —          placed on Corrective Action Plans as required to
$22.0 million was appropriated to the HVRP to         improve their performance. In the four grants we
fund 89 competitive grants in 34 states to address    reviewed in detail, the Grant Officer Technical
the training and employment needs of homeless         Representatives’ monitoring and regional offices’
veterans. The grants’ emphasis was on veterans        review controls failed to detect and/or respond to
finding and retaining employment as a critical        performance and financial compliance
factor in eliminating homelessness or the threat of   deficiencies. VETS’ primary grant reporting and
homelessness among them. To this end, planned         management system was found to be unavailable,
goals were to assist 14,081 homeless veterans         which hampered reporting and weakened
find and retain employment for at least three         oversight functions.
quarters.
                                                      As a result, performance results fell short of the
                                                      planned goal of placing 9,093 veterans into
WHY OIG CONDUCTED THE AUDIT                           employment by 2,461 veterans, or 27 percent. Had
The Department of Veteran Affairs estimated that      VETS provided effective oversight of
in 2009, 107,000 adults who served in the armed       underperforming grants, we estimate that
forces stayed in a shelter on one or more nights.     $5.9 million of program funds may have been put
We conducted an audit of VETS’ HVRP to                to better use.
answer the question: Did the VETS’ HVRP
effectively meet the employment needs of              WHAT OIG RECOMMENDED
homeless veterans?                                    We recommended the Assistant Secretary of
                                                      Veterans’ Employment and Training take steps to
                                                      develop and implement policies and procedures
READ THE FULL REPORT                                  requiring greater oversight of grantees.
To view the report, including the scope,              Additionally, we recommend VETS develop a
methodology, and full agency response, go to:         standardized methodology to review grantee
http://www.oig.dol.gov/public/reports/oa/2010/06-     operations and performance, and implement a
10-003-02-001.pdf                                     reliable program reporting system.

                                                      The Assistant Secretary agreed and committed to
                                                      developing and implementing corrective actions.


                                                         

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 

                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ........................................................................ 1


Results In Brief .............................................................................................................. 2


Objective – Did the VETS’ HVRP effectively meet the employment needs of 

             homeless veterans? ............................................................................... 3


         Significant breakdown in VETS' oversight of underperforming grants resulted in
         the program not meeting the employment needs of homeless veterans and did
         not ensure $5.9 million of program funds were put to best use……………………3

         Finding - The breakdown in program oversight resulted in HVRP not 

                   meeting program outcome goals.. ........................................................ 3


Exhibit
         Exhibit PY 2008 HVRP Data Analysis ................................................................ 11


Appendices
         Appendix A Background ..................................................................................... 15

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17

         Appendix C Acronyms and Abbreviations .......................................................... 21

         Appendix D VETS Response to Draft Report ..................................................... 23

         Appendix E Acknowledgements ......................................................................... 25 

         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 

                                      U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 30, 2010

                        Assistant Inspector General’s Report



Raymond M. Jefferson 

Assistant Secretary for Veterans’ 

 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG), Office of Audit, conducted a performance audit
of the Homeless Veterans Reintegration Program (HVRP) that is under the purview of
the Veterans’ Employment and Training Service (VETS). The primary purpose of the
HVRP is to assist homeless veterans to enter and retain employment.

The Department of Veteran Affairs estimated that in 2009, 107,000 adults who served in
the armed forces stayed in a shelter on one or more nights. For program year (PY) 2008
— July 1, 2008, through June 30, 2009 — $22.0 million was appropriated to the HVRP
to fund 89 competitive grants in 34 states to address the training and employment
needs of homeless veterans. PY 2008 is the most recent program year available for
assessing the program performance results.

The audit objective was to answer the following question:

   Did the VETS’ HVRP effectively meet the employment needs of homeless veterans?

The audit covered HVRP funds issued to grantees for PY 2008. We obtained from
VETS the most current criteria and processes used for conducting program oversight. In
addition, we reviewed the grantee oversight process in all six regions through interviews
and review of grants and quarterly reports that were submitted to the Grant Officer
Technical Representatives (GOTR). We selected four grants for detailed review — two
from each region visited. We tested quarterly and annual on-site monitoring performed
by the GOTRs and regional staff encompassing financial transactions, performance
results, and participant case file documentation.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the

                                                           Homeless Veterans Reintegration Program
                                              1                       Report No. 06-10-003-02-001
                                     U. S. Department of Labor – Office of Inspector General


audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

VETS lacked adequate controls to ensure that HVRP effectively met the employment
needs of homeless veterans. Measurement of overall program results revealed that of
the 13,777 program enrollments, only 4,302 (31 percent) homeless veterans obtained
and retained employment for three quarters. Our review of national, regional, and
state/local grant operations revealed a significant breakdown in VETS’ oversight and
monitoring of grantee operations and performance.

VETS’ policies require grants that do not meet 85 percent of one or more of their
performance goals to be placed on a Corrective Action Plan (CAP) and receive a
greater level of technical assistance and scrutiny necessary to improve their
performance. Overall, 60 of 89 awarded grants (67 percent), did not achieve 85 percent
of one or more performance goals. In 49 of the 60 grants (82 percent), VETS’ controls
did not ensure that the underperforming grants were placed on a CAP to address their
underperformance. VETS’ officials stated they preferred to provide technical assistance
as the first response to a deficiency and follow up with a CAP if additional reinforcement
was needed.

We determined VETS’ oversight did not provide sufficient review of grant operations at
both the GOTR and the regional office levels. In our review of four grants, the GOTRs’
monitoring and regional staffs’ controls failed to detect and/or respond to performance
and financial compliance deficiencies. In addition, the unavailability of the VETS
Outcomes and Performance Accountability Reporting (VOPAR) system and the lack of
a standardized monitoring methodology further weakened VETS’ oversight. VETS
officials told us they recognize shortcomings in their efforts to provide the requisite
oversight necessary for grantees to meet HVRP program objectives. VETS informed us
of fragmentary and inconsistent guidance for grant operations at all levels resulted in
grant monitoring that lacked the desired degree of consistency and rigor.

As a result, due to the significant breakdowns in VETS’ oversight of its underperforming
grants, HVRP performance results fell short of their planned goal of placing 9,093
veterans into employment by 2,461 veterans, or 27 percent. Had VETS provided
effective oversight of underperforming grants, we estimate that an additional 2,461
veterans at an average cost of $2,423 each may have entered employment and put
$5.9 million of program funds to best use.

We made four recommendations to the Assistant Secretary of Veterans’ Employment
and Training Service. In summary, we recommend VETS take steps to develop and
implement policies and procedures at all levels requiring greater oversight of grantees
which includes placing underperforming grantees on a CAP. Additionally, we
recommend VETS develop and implement a standardized methodology to review

                                                     Homeless Veterans Reintegration Program
                                            2                   Report No. 06-10-003-02-001
                                     U. S. Department of Labor – Office of Inspector General


grantee operations and performance, and implement a reliable program reporting
system.

In response to our draft report, the Assistant Secretary for Veterans’ Employment and
Training agreed that program goals were not met and improvements are needed in
oversight and management at all levels. He stated performance can and needs to be
improved for HVRP. However, the Assistant Secretary did not agree that significant
breakdowns in VETS oversight were the cause for not meeting program goals.

The Assistant Secretary’s entire response is contained in Appendix D.


RESULTS AND FINDING

Objective — Did the VETS’ HVRP effectively meet the employment needs of
           homeless veterans?

      Significant breakdowns in VETS' oversight of underperforming grants resulted in
      the program not meeting the employment needs of homeless veterans and did
      not ensure $5.9 million of program funds were put to best use.

Finding — Breakdowns in program oversight resulted in HVRP not meeting
         program outcome goals.

The VETS’ HVRP did not effectively meet the employment needs of homeless veterans.
In PY 2008, VETS awarded 89 grants to provide employment assistance to homeless
veterans with grant goals that supported the program’s outcome goals. The aggregate
planned enrollment for the 89 grants totaled 14,081 while actual enrollment totaled
13,777. Our measurement of overall program results revealed that of the 13,777
enrollments, only 4,302 homeless veterans (31 percent) obtained and retained
employment.

For VETS’ key program goals of Entered Employment Rate (EER) and Employment
Retention Rate (ERR), VETS’ annual results indicated an actual 48 percent EER
against a performance goal of 66 percent. Specifically, our calculation of 66 percent of
VETS’ 13,777 program enrollments indicates VETS’ goal was to assist 9,093 homeless
veterans in gaining employment. However, while the program efforts did result in a
positive outcomes for 6,632 homeless veterans who entered employment, the
achievement fell short of the program’s goal by 2,461 veterans, or 27 percent.

VETS’ ERR performance goal of 65 percent measured veterans who gained and
retained employment for up to three quarters. We found VETS did achieve the 65
percent ERR goal in that 4,302 of the 6,632, or 65 percent, veterans who had entered
employment, remained employed three quarters later. However, while the achievement
of 4,302 homeless veterans retaining employment is noteworthy, had the 65 percent
measurement been applied to VETS’ planned entered employment goal of 9,093, it

                                                     Homeless Veterans Reintegration Program
                                            3                   Report No. 06-10-003-02-001
                                                  U. S. Department of Labor – Office of Inspector General


would have resulted in an ERR of 47 percent, instead of being based on the significantly
lower actual entered employment figure of 6,632. See chart below for HVRP program
results for comparison of planned to actual performance measures.



                                  Comparison of Planned to Actual

                                     Performance Measures


             10,000                        9,093
              9,000
              8,000
              7,000                  6,632                 5,910                     Actual
    Number of 6,000                                                                  Goal
    Homeless  5,000
    Veterans   4,000                                  4,302
               3,000
               2,000
               1,000                                                      Goal
                   0
                                                                     Actual
                               Entered
                              Employment        Retained
                                               Employment



VETS recognized shortcomings in its efforts to provide the requisite oversight necessary
for grantees to meet their performance goals and for HVRP to meet its program
objectives.

Our review of national, regional, and state/local grant levels of operations revealed a
lack of agency oversight and monitoring of grantee operations and performance.
Overall, 60 of 89 grants awarded, or 67 percent, did not achieve 85 percent of one or
more of their performance goals. Moreover, 49, or 82 percent, of those 60
underperforming grantees were not placed on a CAP. 1 See chart below for HVRP
program results for these 60 underperforming program grants.




1
    Please see Exhibit for a summary of performance data provided by VETS’ national office.

                                                                      Homeless Veterans Reintegration Program
                                                           4                     Report No. 06-10-003-02-001
                                       U. S. Department of Labor – Office of Inspector General



                        Measure of Grant Performance


                            60
                                  16
                            50
             Number of      40            50       50                       Shortfall
                                                            52
          Underperforming   30                                              Achievement
              Grants              44
                            20
                            10            10       10       8
                            0    ts


                                ts


                                              R


                                                        R
                                            EE


                                                    ER
                              en


                              en
                          ll m


                          em
                        ro


                       ac
                     En


                     Pl




                                 Grant Performance Goals



The grant agreements state that grantees who do not meet 85 percent of their intended
goals are to develop a CAP to address performance and or operational deficiencies
sufficient to remedy their underperformance. VETS’ HVRP 2008 Special Provisions,
Section IV, Subsection B.7 “Corrective Actions,” states:

      A CAP will be required if, on a quarterly basis, actual grant
      accomplishments vary by a margin of +/-15% or more from the planned
      goals. … All +/-15% deviations from the planned goals, that have a
      negative impact on the grantee’s ability to accomplish planned goals, must
      be fully explained in the grantee's quarterly technical report and a CAP is
      to be initiated, developed, and submitted by the grantee to the [GOTR] for
      approval.

According to the VETS’ Guide, Section 7.5, page 102, VETS’ role in monitoring the CAP
should be as follows:

      On the basis of the schedule contained in the CAP, the GOTR contacts
      the grantee to ensure that the proposed actions have been taken. The
      GOTR also determines whether or not the grantee believes the actions
      taken are effective. Grantee quarterly summary reports submitted after a
      CAP has been filed must indicate the grantee’s performance in fulfilling
      the CAP. The GOTR must consult both the original Grant Agreement and
      the CAP when performing desk reviews to ensure that the grantee is in
      compliance with both. If necessary, the GOTR should schedule a
      follow-up on-site visit.



                                                         Homeless Veterans Reintegration Program
                                               5                    Report No. 06-10-003-02-001
                                      U. S. Department of Labor – Office of Inspector General


We determined that 49, or 82 percent, of the 60 underperforming grantees were not
placed on a CAP as required. Of the 49 underperformers, 42, or 86 percent, received
renewed funding for PY 2009. By not placing underperforming grantees on a CAP,
VETS’ management overrode established internal controls, thus allowing ongoing and
future performance deficiencies resulting in under-serving homeless veterans.

VETS stated they did not implement CAP requirements as they preferred to provide
technical assistance as the first response to a deficiency, followed by a CAP if additional
reinforcement was needed. However, VETS recognized shortcomings in providing
requisite oversight to better meet program objectives. Of the four grants we reviewed,
two grants in separate regions were reported as being placed on a CAP. The supporting
documentation for the GOTRs’ monthly review demonstrated VETS did not adequately
or consistently monitor the grantee’s progress in addressing performance issues
identified in the CAP. For example, one grantee was placed on a CAP but no
subsequent review was conducted by the GOTR or regional office.

In reviewing regional and GOTR oversight of grantees’ performance reporting and
financial compliance, we selected and reviewed four grants in two regions. We analyzed
VETS’ specific monitoring actions when evaluating grantee performance of services
provided to veterans, which included review of summary performance and financial
reports, 111 participant employment service case files, and processing of
reimbursement transactions. Our audit work revealed that the GOTRs’ monitoring and
regional staffs’ reviews failed to detect and/or adequately respond to performance and
financial compliance deficiencies in the management of grant funds.

Specifically, we found that 76 of 111, or 68 percent, participants reviewed did not obtain
employment from their participation in the program. In addition, we identified
deficiencies in grantee performance reporting and service quality such as:

    •	 32 participants were enrolled in the program without sufficient documentation to
       support that they were a veteran and/or homeless;
    •	 31 participant case files lacked documentation that the veterans received
       employment service assistance; and
    •	 One grantee listed four employees as program participants.

We also found financial deficiencies that regional and GOTR oversight had not
detected, including:




                                                      Homeless Veterans Reintegration Program
                                             6                   Report No. 06-10-003-02-001
                                              U. S. Department of Labor – Office of Inspector General


     •	 Overspending of stand-down grant funds without requesting and obtaining
        approval, and not including an explanation within the quarterly report narrative;
     •	 Withdrawing of grant funds, both in excess of and less than the grant budget
        with no request to do so, nor an explanation within the quarterly report narrative;
     •	 Unallowable reimbursement to grantee employees for alcoholic beverages;
     •	 Multiple grant funds accounted for in one general ledger account;
     •	 Misclassification of grant expenses that included charging equipment as 

        professional fees, charging a combination of equipment and training as 

        professional fees, and charging equipment as office supplies; and 

     •	 Insufficient controls and policies for travel expenses that resulted in an
        overpayment to a grantee employee by allowing reimbursement of both actual
        expense and cash advance.

As prescribed in the VETS’ Guide to Competitive and Discretionary grants (April 2003),
Section 7.2, the GOTR is responsible for monitoring the grant, providing technical
assistance as necessary, identifying any instances of non-compliance, and
recommending corrective action.

According to the VETS’ Guide (Section 3.4.1, page 38-39), which incorporates OMB
Circular A-122, the basic principles for appropriately evaluating financial transactions
are that costs need to be allowable, reasonable, and allocable.

We attribute the breakdown in grantee oversight to the lack of well-defined and
communicated policies and procedures and standardized methodology for monitoring
grantee performance to ensure a desired degree of consistency and rigor. In addition,
we determined a significant program oversight weakness resulted from the unavailability
of VOPAR, which contributed to misunderstanding and misapplication of performance
requirements; and untimely, and incorrect reporting of performance results as confirmed
through interviews with grantees, GOTRs, and regional staff members. The VOPAR is
VETS’ primary tool for managing and reporting its program activities. It is an online fully
automated system that provides reporting and contains operational oversight
functionality. We were told that the VOPAR was not functioning at various times during
the year and was not reliable. As a result, due to VOPAR’s unavailability, VETS created
an excel spreadsheet to utilize in lieu of VOPAR. VETS’ management concurred that
there have been shortcomings in the agency’s implementation of monitoring due to
fragmentary and inconsistent guidance, leading to poor communication among the
national, regional, and state/local levels of operation.

As a result, due to the significant breakdowns in VETS’ oversight of its awarded grants,
HVRP did not meet its program outcome goals for entering veterans into employment.
Had VETS provided effective oversight of underperforming grants, we estimate that an
additional 2,461 veterans at an average cost of $2,423 may have entered employment
and put $5.9 million 2 of program funds to best use.

2
 Approved grant funding for PY2008 of $22,036,872 divided by planned entered enrollments of 9,093 equals $2,423
spent per veteran entering employment. VETS intended to assist 9,093 homeless veterans in gaining employment.

                                                                  Homeless Veterans Reintegration Program
                                                       7                     Report No. 06-10-003-02-001
                                                   U. S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend the Assistant Secretary for Veterans’ Employment and Training take
steps to:

1. Develop and implement policies and procedures at the national and regional levels
   requiring greater oversight of grantees.

2. Ensure underperforming grantees are properly placed on a CAP and adequately
   monitored.

3. Develop and implement a standardized methodology for GOTRs to use in
   performing grant-level monitoring of operations and performance.

4. Develop and implement a reliable primary reporting system to ensure the accuracy
   and integrity of performance reporting.


We appreciate the cooperation and courtesies that VETS’ personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




For PY 2008, this resulted in a shortfall of 2,461 veterans. $2,423 multiplied by 2,461 results in $5.9 million in funds
put to best use.

                                                                        Homeless Veterans Reintegration Program
                                                            8                      Report No. 06-10-003-02-001
            U. S. Department of Labor – Office of Inspector General




Exhibit 





                            Homeless Veterans Reintegration Program
                   9                   Report No. 06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                         Homeless Veterans Reintegration Program
               10                   Report No. 06-10-003-02-001
                                          U. S. Department of Labor – Office of Inspector General


                                                                                             Exhibit

PY 2008 HVRP Data Analysis




   ANALYSIS OF DATA PROVIDED TO OIG FROM VETS’ NATIONAL OFFICE FOR PY 2008 HVRP
             GRANTS NOT MEETING 85% OF TARGETED GOALS
   Region       Number of    Number of       Number of     Number of     Grants   Grants       Grants
               Grants Not    Grants Not      Grants Not    Grants Not     that    Actually      Not
                 Meeting       Meeting        Meeting       Meeting     Should     on a       Meeting
                 Actual         Actual         Actual        Actual       Have      Cap        Metrics
               Enrollments   Placements       Entered     Employment    Been on                  &
                                            Employments    Retention     a CAP                Renewed
                                                                                                for
                                                                                              PY 2009
Boston                   2           6                6             7         7          5             3
Philadelphia             3           3                3             2         4          0             3
Atlanta                  2           5                5             7         8          3             3
Chicago                  4          12               12            13        13          2             9
Dallas                   1           5                4             7         7          2             6
San
Francisco               4           19               20            16        21         0          18
Totals                 16           50               50            52        60        12          42




                                                          Homeless Veterans Reintegration Program
                                                11                   Report No. 06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                         Homeless Veterans Reintegration Program
               12                   Report No. 06-10-003-02-001
               U. S. Department of Labor – Office of Inspector General




Appendices 





                               Homeless Veterans Reintegration Program
                     13                   Report No. 06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Homeless Veterans’ Reintegration Program
               14                   Report No.06-10-003-02-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

The HVRP was first authorized under Section 738 of the Stewart B. McKinney
Homeless Assistance Act of July 1987, and amended by Section 5 of the Homeless
Veterans Comprehensive Assistance Act of 2001. The Department of Veteran Affairs
estimated that in 2009, 107,000 adults who served in the armed forces stayed in a
shelter on one or more nights. For PY 2008 — July 1, 2008, through June 30, 2009, the
most recent program year available to assess the program’s performance, $22.0 million
was awarded to the HVRP to fund 89 competitive grants in 34 states to address the
training and employment needs of homeless veterans. The grants’ emphasis was on
veterans finding and retaining employment as a critical factor in eliminating
homelessness or the threat of homelessness among them. To this end, planned goals
were to assist 14,081 homeless veterans find and retain employment for at least three
quarters.

Per the HVRP PY2008 Solicitation for Grant Application (Section 4, Performance
Measures, page 13), the HVRP has two key outcome measures with established
performance targets for the HVRP grants. The first — EER — measures the percentage
of those veterans who exited the program in relation to those veterans placed in
employment. The second — ERR — measures veterans that achieved sustainable
employment as a percentage of those veterans who entered employment in relation to
those veterans who sustained employment for a period of at least three quarters. The
PY 2008 performance targets called for grantees to meet a minimum EER and ERR of
66 and 65 percent, respectively. The 89 grants awarded in PY 2008 provided grantee
goals for Enrollments, Placements, EER, and ERR to support the program’s outcome
measures.

VETS performs grantee monitoring, which includes technical assistance to determine if
grantees are meeting their program outcome goals and corresponding grant
requirements. Specific monitoring actions include evaluating grantee performance of
services provided to veterans, review of summary performance and financial reports,
and processing of reimbursement transactions. If VETS determines that a grantee is
underperforming by not meeting at least 85 percent of their grant outcome goals, the
grantee is required to develop and submit a CAP designed to address their
underperformance. Once approved by the regional office and implemented, the plan
subjects the grantee to a greater level of scrutiny which is intended to help the grantee
reach the prescribed goals.




                                                     Homeless Veterans’ Reintegration Program
                                            15                   Report No.06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Homeless Veterans’ Reintegration Program
               16                   Report No.06-10-003-02-001
                                       U. S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

   Did the VETS’ HVRP effectively meet the employment needs of homeless veterans?

Scope

The audit covered HVRP funds of approximately $22 million issued to grantees for PY
2008 — July 1, 2008, through June 30, 2009 — the most recent program year available
to assess the program performance results for homeless veterans who first gained and
then retained employment three quarters after placement.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objective.

Methodology

We obtained from VETS’ National Office, located in Washington, D.C., the most current
criteria and processes used for monitoring and conducting program oversight. This
included how VETS obtained and evaluated program performance and financial data for
the universe of 89 HVRP grants. Additionally, we reviewed all six regional offices’
(located in Dallas, Texas; Boston, Mass.; Philadelphia, Pa.; Chicago, Ill.; Atlanta, Ga.;
and San Francisco, Calif.) processes for grantee oversight, and reviewed all final
regional quarterly performance reports. We conducted onsite field work at two regional
offices, including interviewing officials at the national and regional offices, and reviewing
grants and quarterly reports that were submitted to the GOTR and subsequently
reviewed by the region. We selected four grants for detailed review — two from each
region visited (Dallas and Boston). We reviewed two grants located in Hammond, La.,
including one urban grant in the amount of $300,000 and one non-urban grant in the
amount of $200,000. We also reviewed one non-urban grant for $200,000 in Nashua,
N.H., and one non-urban grant for $182,693 in Rochester, N.Y.

We tested quarterly and annual on-site monitoring performed by the GOTRs and
regional staff, incorporating financial transactions, performance results, and case file
documentation. Specifically, we reviewed monitoring narratives produced by grantees,
GOTRs, and regional offices for descriptions of performance of grantees and compared
this to the quarterly technical reports provided by the grantees to the GOTRs. We then
reviewed case file documentation located at the grantees to confirm the validity of


                                                      Homeless Veterans’ Reintegration Program
                                             17                   Report No.06-10-003-02-001
                                     U. S. Department of Labor – Office of Inspector General


reported metrics by the grantee to include: enrollments, placements, entered
employments, employment retentions, and grant funds expended. These numbers were
then compared to summary reports provided to us from the national office for
verification. Grant funds expended were compared back to supporting documentation
provided by the individual grantees.

We evaluated the internal controls pertaining to the VETS National Office, selected
Regional Offices and selected grantees related to performance and financial program
objectives. Our recommendations require improvements to the control environment,
control activities, information and communication, and monitoring.

To identify and assess internal controls relevant to our audit objectives, we interviewed
relevant personnel, performed walk-throughs of relevant processes, and reviewed
available policies and procedures. We performed the work at VETS Headquarters, two
regional offices and four grantees. In planning and performing our audit, we considered
internal controls of VETS’ HVRP by obtaining an understanding of the program's
internal controls, determined whether internal controls had been placed in operation,
assessed control risk, and performed tests of internal controls in order to determine our
auditing procedures for the purpose of achieving our objectives. Our consideration of
the program's internal controls would not necessarily disclose all matters that might be
significant deficiencies. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

We obtained from VETS’ national office, located in Washington, D.C., the most current
criteria and processes used for monitoring and conducting program oversight. This
included how VETS obtains and evaluates program performance and financial data for
the universe of 89 HVRP grants. Additionally, we reviewed all six regional offices’
processes for grantee oversight and validation of performance reported data, and
reviewed all final regional quarterly performance reports.

Based on our assessment of data completeness, data authenticity, data consistency
and the accuracy of computer processing, our test results did not detect errors or
suggest an error rate that was unacceptable for the data’s planned usage. Therefore,
the risk is low and the data should be considered sufficiently reliable for meeting the
audit objective.

Criteria

   •	 Title 38, United States Code, Section 2021, as added by Section 5 of Public Law
      107-95

   •	 Solicitation for Grant Applications # 08-06, Period of Performance PY 2008 - July
      1, 2008 through June 30, 2009

   •	 PY 2008 General Provisions



                                                     Homeless Veterans’ Reintegration Program
                                            18                   Report No.06-10-003-02-001
                                 U. S. Department of Labor – Office of Inspector General


•   HVRP PY 2008 Special Grant Provisions

•   VETS’ Guide to Competitive and Discretionary Grants, April 2003

•   OMB Circular A-122 – Attachment A, Cost Principles for Non-Profit Organizations

•   OMB Circular A-123 – Management’s Responsibility for Internal Control




                                                Homeless Veterans’ Reintegration Program
                                       19                   Report No.06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Homeless Veterans’ Reintegration Program
               20                   Report No.06-10-003-02-001
                                   U. S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations


CAP       Corrective Action Plan

DOL       Department of Labor

EER       Entered Employment Rate

ERR       Employment Retention Rate

GOTR      Grant Officer Technical Representative

HVRP      Homeless Veterans Reintegration Program

OIG       Office of Inspector General

OMB       Office of Management and Budget

PY        Program Year

VETS      Veterans’ Employment and Training Service

VOPAR     VETS Outcomes and Performance Accountability Reporting




                                                   Homeless Veterans’ Reintegration Program
                                         21                    Report No.06-10-003-02-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                        Homeless Veterans’ Reintegration Program
               22                   Report No.06-10-003-02-001
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix D
VETS Response to Draft Report




                                               Homeless Veterans’ Reintegration Program
                                      23                   Report No.06-10-003-02-001
U. S. Department of Labor – Office of Inspector General




               Homeless Veterans’ Reintegration Program
      24                   Report No.06-10-003-02-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix E
Acknowledgements

Key contributors to the report were Michael K. Yarbrough, Barry Winnicki, Gerard Howe,
Fernando Paredes, and Enrique Lozano.




                                                    Homeless Veterans’ Reintegration Program
                                           25                   Report No.06-10-003-02-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
